OIG Investigative Reports Press Release Boston, MA., July 22, 2014 - Former Merrimack College Director of Financial Aid Charged with Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF MASSACHUSETTS
NEWS
Former Merrimack College Director of Financial Aid Charged with Fraud
July 22, 2014
BOSTON - The former Director of Financial Aid for Merrimack College was charged yesterday with fraudulently obtaining funding for the North Andover school’s students.
Christine Mordach, 62, of Methuen, was charged with two counts of mail fraud and two counts of wire fraud.
As the Director of Financial Aid for Merrimack College, Mordach was responsible for administering the Perkins Loan program.  The Federal Perkins Loan Program provides low-interest loans to help needy students finance the costs of post-secondary education.  The United States Department of Education provides Perkins Loan funding to each participating school, and the school determines which students have the greatest need and disburses the funds accordingly.  Each school’s revolving Perkins Loan fund is replenished by ongoing activities, such as collections by the school on outstanding Perkins Loans the school amkes.  If awarded a Perkins Loan, a student must complete and sign a Perkins Loan promissory note in order to receive the loan funds.
It is alleged that from 1998 to 2007, Mordach had Perkins Loan funds fraudulently disbursed to Merrimack College students.  In some instances, Mordach asked students, to whom Merrimack College had offered grants, to take out Perkins Loans instead, falsely telling the students that Merrimack College was in danger of losing its unused Perkins Loan funds.  Mordach falsely promised that the students would receive grants for the next academic year in the amount borrowed from the Perkins Loan program which enabled them to pay off their Perkins Loans.
In other instances, Mordach allegedly disbursed Perkins Loan funds to Merrimack College students without a signed promissory note and without the students’ knowledge or approval.  Through at least September 2011, Mordach took actions to conceal the fraudulent Perkins Loans from the students and their parents, and from Merrimack College.
The charging statute provides a sentence of no greater than 20 years in prison, three years of supervised release, and a fine of $250,000.  Actual sentences for federal crimes are typically less than the maximum penalties.  Sentences are imposed by a federal district court judge based upon the U.S. Sentencing Guidelines and other statutory factors.
United States Attorney Carmen M. Ortiz; Brian Hickey, Special Agent in Charge, Department of Education, Office of Inspector General in Boston; and Scott Antolik, Special Agent in Charge of the Office of Inspector General, Social Security Administration, Office of Investigations – Boston Field Division, made the announcement today.  The case is being prosecuted by Kristina E. Barclay of Ortiz’s Public Corruption Unit.
Those who believe that they are a victim of the crimes alleged against Christine Mordach should contact the U.S. Attorney’s Office for the District of Massachusetts at USAMA.VictimAssistance@usdoj.gov.  Information regarding the case can be found at http://www.justice.gov/usao/ma/news/Mordach/index.html
Identified victims will receive notification through an automated victim notification system. Those who have not received notification and believe they should be included as a victim, should contact the U.S. Attorney’s Office at USAMA.VictimAssistance@usdoj.gov.
The details contained in the Information are allegations.  The defendant is presumed innocent unless and until proven guilty beyond a reasonable doubt in a court of law.
The details contained in the Information are allegations.  The defendant is presumed innocent unless and until proven guilty beyond a reasonable doubt in a court of law.
Top
Printable view
Last Modified: 07/25/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov